No. 19-255

 

 

IN THE

Supreme Court of the Anited States

 

THOMAS MORE LAW CENTER,
Petitioner,

Vv.

MATTHEW RODRIQUEZ, ACTING ATTORNEY GENERAL OF THE STATE OF CALIFORNIA,
Respondent.

AFFIDAVIT OF SERVICE

I, John J. Bursch, a member of the Bar of this Court and counsel for Petitioner
hereby certify that on this 17th day of April, 2021, I caused a copy of Petitioner’s
Motion for Leave to File Merits Reply Brief Out-of-Time to be served electronically
on counsel as listed below. I further certify that paper copies of the Motion will be
shipped for overnight delivery via Federal Express on the 19th day of April, 2021.

Aimee Feinberg Elizabeth B. Prelogar
California Department of Justice Acting Solicitor General
1300 I Street U.S. Department of Justice
Sacramento, CA 95814 950 Pennsylvania Ave NW
Aimee. Feinberg@doj.ca.gov Room5616

Washington, DC 20530-0001
Derek L.Shaffer SupremeCtBriefs@USDOJ.gov

Quinn Emanuel Urquhart

& Sullivan, LLP
1300 I Street NW, Suite 900
Washington, DC 20005
derekshaffer@quinnemanuel.com

Executed on April 17, 2021. Of Q) les
Jory J.BuRscH / © f a

Jory (ANCE DEFENDING FREEDOM
440 First Street NW, Suite 600
Washington, DC 20001
(616) 450-4235
jbursch@ADFlegal.org

 

Counsel for Petitioner

 
